Nos. 19-715, 19-760
In the Supreme Court of the United States
DONALD J. TRUMP; THE TRUMP ORGANIZATION, INC.; TRUMP ORGANIZATION LLC; THE
TRUMP CORPORATION; DJT HOLDINGS LLC; THE DONALD J. TRUMP REVOCABLE
TRUST; AND TRUMP OLD POST OFFICE LLC,
Applicants,
v.
MAZARS USA, LLP; COMMITTEE ON OVERSIGHT AND REFORM OF THE
U.S. HOUSE OF REPRESENTATIVES,
Respondents.
DONALD J. TRUMP; DONALD J. TRUMP, JR.; ERIC TRUMP; IVANKA TRUMP; DONALD J.
TRUMP REVOCABLE TRUST; TRUMP ORGANIZATION, INC.; TRUMP ORGANIZATION LLC;
DJT HOLDINGS LLC; DJT MANAGING MEMBER LLC; TRUMP ACQUISITION LLC;
TRUMP ACQUISITION, CORP.,
Applicants,
v.
DEUTSCHE BANK AG; CAPITAL ONE FINANCIAL CORPORATION; COMMITTEE ON
FINANCIAL SERVICES OF THE UNITED STATES HOUSE OF REPRESENTATIVES;
PERMANENT SELECT COMMITTEE ON INTELLIGENCE OF THE UNITED STATES HOUSE OF
REPRESENTATIVES,
Respondents.
PETITIONERS’ APPLICATION FOR LEAVE TO EXCEED WORD LIMITS
IN PETITIONERS’ BRIEFS ON THE MERITS

Jay Alan Sekulow
Stuart J. Roth
Jordan Sekulow
CONSTITUTIONAL LITIGATION
AND ADVOCACY GROUP, P.C.
1701 Pennsylvania Ave, NW,
Ste. 200
Washington, DC 20006
(202) 546-8890
jsekulow@claglaw.com
Stefan C. Passantino
Michael Best & Friedrich LLP
1000 Maine Ave. SW, Ste. 400
Washington, DC 20024
(202) 747-9582
spassantino@michaelbest.com

William S. Consovoy
Counsel of Record
Alexa R. Baltes
Jordan M. Call
CONSOVOY MCCARTHY PLLC
1600 Wilson Blvd., Ste. 700
Arlington, VA 22209
(703) 243-9423
will@consovoymccarthy.com

Patrick Strawbridge
CONSOVOY MCCARTHY PLLC
Ten Post Office Square
8th Floor South PMB #706
Boston, MA 02109
patrick@consovoymccarthy.com

Counsel for Applicant-Petitioners

CORPORATE DISCLOSURE STATEMENT
Per Supreme Court Rule 29, Applicant-Petitioners The Trump Organization,
Inc., Trump Organization LLC, DJT Holdings LLC, The Trump Corporation, Trump
Old Post Office LLC, DJT Managing Member LLC, Trump Acquisition LLC, and
Trump Acquisition, Corp. state that they have no parent companies or publicly-held
companies with a 10% or greater ownership interest in them.

i

To the Honorable John G. Roberts, Jr., Chief Justice of the United States and
Circuit Justice for the District of Columbia Circuit:
For the reasons stated below, Petitioners respectfully request leave to file a
brief on the merits in excess of the word limit set forth in Supreme Court Rule
33.1(g)(v), not to exceed 19,000 words, and a reply brief on the merits in excess of
the word limit set forth in Supreme Court Rule 33.1(g)(vii), not to exceed 9,000
words.
1.

The Mazars Petitioners filed a petition for writ of certiorari in No. 19-

715 on December 4, 2019.
2.

The Deutsche Bank Petitioners filed an emergency application for stay

in No. 19-760 (19A640) on December 6, 2019.
3.

On December 13, 2019, the Court granted the Mazars petition (No. 19-

715), treated the Deutsche Bank application as a petition for a writ of certiorari (No.
19-760), and granted that petition as well. The Court’s order consolidated Nos. 19715 and 19-760 and allotted a total of one hour for oral argument.
4.

Petitioners intend to file a single brief on the merits and a single reply

brief on the merits in the consolidated appeals.
5.

Although the two appeals present overlapping legal issues, they arise

out of separate (lengthy) decisions and involve particularized factual backgrounds.
To adequately address these differences, Petitioners respectfully request leave to file
a brief on the merits in excess of the 13,000-word limit imposed by Supreme Court
Rule 33.1(g)(v), not to exceed 19,000 words. For the same reasons, Petitioners

1

respectfully request leave to file a reply brief on the merits in excess of the 6,000word limit imposed by Supreme Court Rule 33.1(g)(vii), not to exceed 9,000 words.
6.

Counsel for Petitioners has conferred with counsel for Respondents.

Respondents Committee on Oversight and Reform, Committee on Financial Services,
and Permanent Select Committee on Intelligence take the position that consolidated
briefing is appropriate, but that the parties’ opening briefs should not exceed 15,000
words and Petitioners’ reply brief should not exceed 7,000 words. Respondents
Mazars USA, LLP, Deutsche Bank AG, and Capital One Financial Corporation take
no position on this application.

January 7, 2020

Respectfully submitted,

Jay Alan Sekulow
Stuart J. Roth
Jordan Sekulow
CONSTITUTIONAL LITIGATION
AND ADVOCACY GROUP, P.C.
1701 Pennsylvania Ave, NW,
Ste. 200
Washington, DC 20006
(202) 546-8890
jsekulow@claglaw.com

William S. Consovoy
Counsel of Record
Alexa R. Baltes
Jordan M. Call
CONSOVOY MCCARTHY PLLC
1600 Wilson Blvd., Ste. 700
Arlington, VA 22209
(703) 243-9423
will@consovoymccarthy.com

Stefan C. Passantino
Michael Best & Friedrich LLP
1000 Maine Ave. SW, Ste. 400
Washington, DC 20024
(202) 747-9582
spassantino@michaelbest.com

Patrick Strawbridge
CONSOVOY MCCARTHY PLLC
Ten Post Office Square
8th Floor South PMB #706
Boston, MA 02109
patrick@consovoymccarthy.com

Counsel for Applicant-Petitioners

2

